HHS/OIG-Audit -"Review of Medicare Contractor's Pension Segmentation Requirements at Anthem Insurance Companies, Inc. for the Period January 1, 1991, to January 1, 2003,"(A-07-04-00181)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicare Contractor's Pension Segmentation Requirements at Anthem Insurance Companies, Inc. for the Period January 1, 1991, to January 1, 2003," (A-07-04-00181)
October 18, 2005
Complete Text of Report is available in PDF format (532 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objectives were to determine if Anthem complied with the Medicare contracts pension segmentation requirements while updating AdminaStars Medicare segment assets from January 1, 1991, to January 1, 2003, and Maines Medicare segment assets from December 31, 2000, to January 1, 2003.  We found that  Anthem did not comply with the Medicare contracts pension segmentation requirements while updating AdminaStars and MainesMedicare segment assets.  As a result, Anthem overstated AdminaStars Medicare segment assets by $440,294 from January 1, 1991, to January 1, 2003, and Maines Medicare segment assets by $192,694 from December 31, 2000, to January 1, 2003.
We recommended that Anthem: (1) decrease AdminaStars Medicare segment pension assets by $440,294 as of January 1, 2003; (2) decrease Maines Medicare segment pension assets by $192,694 as of January 1, 2003; and (3) implement controls to ensure that it updates the Medicare segments assets in accordance with the Medicare contracts.  Anthem agreed with our report findings.  Anthem also provided information that we used to clarify the report background.